TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Invoice Audit of the Microsoft Consulting
                    Services Contract – TIRNO-03-K-00191



                                             June 2006

                              Reference Number: 2006-10-086




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             June 8, 2006


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Invoice Audit of the Microsoft Consulting
                             Services Contract – TIRNO-03-K-00191 (Audit # 200510026)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Microsoft
 Consulting Services Contract – TIRNO-03-K-00191. The overall objective of this review was to
 determine whether selected invoices submitted and paid under contract number
 TIRNO-03-K-00191 were appropriate and in accordance with the contract’s terms and
 conditions.

 Synopsis
 Contract expenditures represent a significant outlay of IRS funds. The Treasury Inspector
 General for Tax Administration has made a commitment to perform audits of these expenditures.
 We initiated this audit to determine whether the invoices submitted by the contractor and paid by
 the IRS were accurate, supported, and allowable.
 We initially identified $1,821,578.75 in questionable labor costs because the contractor stated it
 did not have in its possession the necessary documentation to support time charged by
 subcontractors. We provided both the IRS and contractor personnel a list of these questioned
 costs in September 2005.
 However, it was not until we presented the questioned costs in a discussion draft report issued to
 the IRS in December 2005 that the contractor obtained the necessary documentation from its
 subcontractors to support all of the labor costs. During the period when these charges were
 invoiced by the contractor, the IRS did not review, as part of its invoice verification process, any
 source documents such as timecards to confirm labor hours charged.
 We also initially determined the contractor could not provide résumés for 31 percent (23 of 75)
 of subcontractor-provided consultants listed on the invoices we tested. Charges associated with
                    Invoice Audit of the Microsoft Consulting Services Contract –
                                          TIRNO-03-K-00191



these consultants totaled $650,176.37. On April 7, 2006, subsequent to the issuance of our draft
report on February 28, 2006, the IRS provided 10 additional résumés, which it considered
acceptable. According to the IRS, these résumés reduced the amount related to the remaining
13 consultants to $444,430. As with labor hours, during the period when these charges were
invoiced by the contractor, the IRS did not review subcontractor-provided consultant résumés to
verify the qualifications of the consultants.
In a related matter that affects the control environment and risk associated with this contract, we
determined that neither the contractor nor its subcontractor, which performed 100 percent of the
work on this contract, is audited by the Defense Contract Audit Agency.1 Thus, the Federal
Government has not opined on the adequacy of the contractor’s or subcontractor’s financial,
billing, and estimating systems of internal control. Because of these conditions on this contract,
we believe the IRS was subjected to a higher level of risk for improper contractor payments.
As part of this audit, we also examined contract correspondence files and interviewed the
Contracting Officer and the Contracting Officer’s Technical Representative to determine whether
the contractor’s performance was satisfactory. Based on these limited auditing procedures,
nothing came to our attention that would lead us to believe there were significant problems with
the deliverables associated with the tasks included in our tests.

Recommendations
We recommended the Director, Procurement, ensure Contracting Officers and Contracting
Officer’s Technical Representatives 1) adhere to Federal Acquisition Regulation 52.232-7(a)(1),
Payments Under Time-and-Materials and Labor-Hour Contracts;2 2) are cognizant of the
importance of requesting and reviewing résumés of contracted consultants; and 3) are cognizant
of the extent of audit coverage, if any, by the Defense Contract Audit Agency and adjust invoice
verification procedures accordingly.

Response
IRS management disagreed with all of our recommendations and the reported outcome measure.
They stated that they believe the invoices submitted and paid under the subject contract were
appropriate according to its commercial terms. Management’s complete response to the draft
report is included as Appendix V.



1
  The Defense Contract Audit Agency, under the authority, direction, and control of the Under Secretary of Defense
(Comptroller), is responsible for performing all contract audits for the Department of Defense. It also provides
contract audit services to some other Federal Government agencies.
2
  48 C.F.R. ch. 1 (2005).
                                                                                                                 2
                 Invoice Audit of the Microsoft Consulting Services Contract –
                                       TIRNO-03-K-00191




Office of Audit Comment
Management asserts the invoices submitted and paid under the subject contract were appropriate
according to its commercial terms and therefore disagrees with all of our recommendations. This
assertion is based, in part, on our reporting of no identified questioned charges. However, the
fact that no charges were found to be questionable should not be the basis to forgo the need to
improve the IRS’ overall invoice verification control environment, which is the intent of our
recommendations. Further, we initially reported in our discussion draft report $1.8 million in
questioned costs, out of $2.8 million reviewed, due to unsupported subcontractor labor charges.
If this subcontractor-prepared documentation existed throughout the contract period, we question
why it took over 4 months for the IRS to provide us the timecards and labor hour reports,
especially since similar documentation was provided promptly for $1 million of the $2.8 million
reviewed. Such documentation should be readily identifiable and retrievable from the business
accounting and recordkeeping system.
We will continue to include a review of the IRS’ voucher verification process in future contract
invoice audits and, if warranted, recommend improvements to the process.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have any questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                   3
                        Invoice Audit of the Microsoft Consulting Services Contract –
                                              TIRNO-03-K-00191




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Questionable Contract Charges and Invoice Verification Process ...............Page 2
                    Recommendation 1:..........................................................Page 5

                    Recommendation 2:..........................................................Page 7

                    Recommendation 3:..........................................................Page 8

          Contract Deliverables Were Acceptable.......................................................Page 10

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Outcome Measure ................................................................Page 16
          Appendix V – Management’s Response to the Draft Report .......................Page 17
                    Invoice Audit of the Microsoft Consulting Services Contract –
                                          TIRNO-03-K-00191




                                            Background

In April 2003, the Internal Revenue Service (IRS) awarded task order (contract1) number
TIRNO-03-K-00191 under General Services Administration (GSA) Contract GS-35F-0273L.
The contract allowed various IRS offices to obtain information technology professional services.
IRS offices requiring services could submit a work request, with proper approvals, and have the
work assigned to the contract as appropriate. The services primarily involved time-and-materials
tasks. A small proportion involved fixed-price tasks that provided for technical support for
unforeseen incidents that required calling in a software technician.
The contract was initially awarded for 1 year, from April 4, 2003, through April 3, 2004. Three
subsequent amendments extended its period of performance to February 28, 2005. According to
the IRS Request Tracking System,2 as of June 15, 2005, the IRS had awarded 33 tasks, with a
total value not to exceed approximately $8.3 million, and had recorded approximately
$7.7 million in transactions against these tasks. The contractor submitted invoices monthly; the
invoices included charges for all tasks that had activity during the month. Subcontractors
performed 100 percent of the work on the tasks.
Because contract expenditures represent a significant outlay of IRS funds, the Treasury Inspector
General for Tax Administration (TIGTA) made a commitment to perform audits of these
expenditures. This audit was designed to determine whether amounts paid by the IRS under this
contract were accurate, supported, and allowable through a review of contractor invoices and
supporting documentation.
This audit was performed at the Office of Procurement in the Office of Agency-Wide Shared
Services in Oxon Hill, Maryland, and the contractor’s facility in Fairfax, Virginia, during the
period June 2005 through January 2006. Opinions expressed in this report pertain only to the
tasks and invoices included in our judgmental sample.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




1
  For simplicity of presentation, we will refer to this task order as a contract throughout this report.
2
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic acceptance of items
delivered and provides an electronic interface with the Integrated Financial System (the IRS’ administrative
financial accounting system) for payment processing.
                                                                                                          Page 1
                     Invoice Audit of the Microsoft Consulting Services Contract –
                                           TIRNO-03-K-00191




                                       Results of Review

Questionable Contract Charges and Invoice Verification Process
We examined supporting documentation obtained from the IRS Office of Procurement, as well
as documentation received directly from the contractor, for a sample of seven monthly invoices.
The invoices were selected using a judgmental sampling method (see Appendix I for details).
The sampled invoices included charges related to 23 tasks with award amounts totaling
approximately $6.5 million and transactions of approximately $5.8 million. The 7 invoices had
performance dates from June 2003 to November 2004 and involved approximately $2.8 million
in IRS payments.
The primary expenses claimed by the contractor were subcontractor payments to one very large,
well-known software developer. In fact, this subcontractor, including its own subcontractors,
provided 100 percent of the labor on this contract. The contractor did not perform any work
specifically related to the services delivered under this contract but functioned only to provide
contract administrative support. We were informed by the Defense Contract Audit Agency
(DCAA)3 that, according to its records, neither the contractor nor the subcontractor is audited by
the DCAA.

Questionable contract charges
The Contracting Officer’s Technical Representative (COTR) did not examine source documents,
such as timecards, in his or her review of labor hours. The COTR established various processes
in an effort to ensure labor hours were reasonable; however, as described later in this report, we
believe those procedures were insufficient. We initially identified $1,821,578.75 in questioned
labor costs because the contractor stated it did not have in its possession the necessary
documentation to support time charged by subcontractors. We provided both IRS and contractor
personnel a list of these questioned costs in September 2005. However, it was not until we
presented the questioned costs in a discussion draft report issued to the IRS in December 2005
that the contractor obtained the necessary documentation from its subcontractors to support all of
the labor costs, which we were provided on January 30, 2006.
We also initially determined the contractor could not provide résumés for 31 percent (23 of 75)
of subcontractor-provided consultants listed on the invoices we tested. Charges associated with
these consultants totaled $650,176.37. On April 7, 2006, subsequent to the issuance of our draft

3
  The DCAA, under the authority, direction, and control of the Under Secretary of Defense (Comptroller), is
responsible for performing all contract audits for the Department of Defense. It also provides contract audit services
to some other Federal Government agencies.
                                                                                                              Page 2
                    Invoice Audit of the Microsoft Consulting Services Contract –
                                          TIRNO-03-K-00191



report on February 28, 2006, the IRS provided 10 additional résumés, which it considered
acceptable. According to the IRS, these résumés reduced the amount related to the remaining
13 consultants to $444,430. Résumés or similar documentation are essential in ensuring
individuals are technically qualified to be reimbursed at the stated labor category or rate.
Unsupported charges and unverified consultant qualifications, especially associated with this
contract, are significant because neither the contractor nor the subcontractor is audited by the
DCAA and because of what we believe to be insufficient invoice verification by the IRS, as
discussed below. Unless adequate supporting documentation for invoiced charges and consultant
qualifications is obtained, the IRS cannot assure the allowability of the charges or for services
provided. This puts the IRS at risk of making improper contractor payments.
The Federal Acquisition Regulation (FAR)4 stipulates a contractor is responsible for accounting
for costs appropriately and for maintaining records, including supporting documentation,
adequate to demonstrate that costs claimed have been incurred. The FAR also provides that
costs shall be allowed to the extent they are reasonable, allocable, and allowable under the FAR.

Invoice verification process
Contracts may be entered into and signed on behalf of the Federal Government only by
Contracting Officers (CO). COs have the authority to administer or terminate contracts and
make related determinations and findings. COs are responsible for ensuring performance of all
necessary actions for effective contracting, ensuring compliance with the terms of the contract,
and safeguarding the interests of the United States in its contractual relationships.
The requesting program office nominates a COTR, who is the CO’s technical expert and
representative in the administration of a contract or task order. Usually, the CO will appoint a
COTR by issuing a signed letter of appointment tailored to meet the needs of each contract. The
CO and the COTR are required to jointly review all appointed duties.
Prior to April 28, 2004, the Department of the Treasury Contracting Officer’s Technical
Representatives Handbook (the Handbook) was the primary guidance for COTRs.5 Part IV of
the Handbook stated, in part, COTRs are responsible for reviewing and approving invoices and
vouchers on contracts. It also stated the COTR would receive instructions regarding
involvement in the review and approval of invoices and vouchers from the CO. Attachment E of
the Handbook offered, as a sample responsibility for time-and-materials contracts, that COTRs
are responsible for reviewing and signing off on the invoices, attesting to their accuracy. Two of
the seven invoices we reviewed during this audit were subject to this guidance.



4
 48 C.F.R. ch. 1 (2005).
5
 Department of the Treasury Acquisition Circular No. 02-01, dated April 28, 2004, deleted references to the
Handbook. The Circular also stated the Department of the Treasury would no longer maintain the Handbook.
                                                                                                          Page 3
                  Invoice Audit of the Microsoft Consulting Services Contract –
                                        TIRNO-03-K-00191



On April 28, 2004, the IRS replaced the Handbook guidance, in part, with a reference to the
Office of Federal Procurement Policy document A Guide to Best Practices for Contract
Administration (the Guide). The Guide offers, as a practical technique, that COTRs reviewing
vouchers under cost-reimbursement contracts should review the contractor’s timecards, sign-in
sheets, and overtime records to help assess the reasonableness of direct labor costs. The Guide
also contains direction to review major cost categories such as travel, supplies, other direct costs,
and subcontractor costs to again determine the reasonableness of the claimed costs. Although
the Guide, which was published in October 1994, does not include a specific reference to
time-and-materials contracts, we believe it is reasonable to infer that administration requirements
for cost-reimbursement contracts would also apply to time-and-materials contracts.
FAR 52.232-7(a)(1), Payments Under Time-and-Materials and Labor-Hour Contracts, states, in
part, “The Contractor shall substantiate vouchers by evidence of actual payment and by
individual daily job timecards, or other substantiation approved by the Contracting Officer.”
The COTR stated that he or she had no written procedures for reviewing invoices and was not
familiar with the Guide. He or she receives monthly invoices and status reports directly from the
contractor and then performs a detailed review of hours and labor rates. The contractor creates
weekly status reports that include operational information and comparisons of funds expended to
total funds available for each task. These status reports are reviewed during weekly
teleconferences involving the COTR, IRS task managers, and contractor personnel.
The COTR stated that he or she relies on feedback obtained from task managers during the
weekly teleconferences to determine whether hours charged for labor are reasonable. He or she
stated that the Government task managers closely monitor hours worked and provide feedback to
verify their accuracy. The COTR does not perform a detailed verification of actual hours
worked, such as a review of contractor-provided payroll or related payment records. The COTR
also stated that he or she does perform a thorough detailed review of travel charges.
Although we acknowledge that the COTR established procedures to determine whether hours
charged for labor are reasonable, in our opinion and based on the guidance provided in
FAR 52.232-7(a)(1), IRS officials should have reviewed original subcontractor-prepared
supporting documentation, on at least a sample basis, to verify labor hours charged. This type of
verification would be especially important because neither the contractor nor the subcontractor is
audited by the DCAA. Thus, the Federal Government has not opined on the adequacy of the
contractor’s or subcontractor’s financial, billing, and estimating systems of internal controls used
to produce payroll and labor charges in support of Federal Government contracts and invoices.
Further, we believe relying on contractor-prepared reports on subcontractor charges is inadequate
because the report information is not generated directly from the subcontractor’s accounting
records.
In addition, the COTR did not review subcontractor-provided consultant résumés to verify the
qualifications of the consultants. The COTR stated that he or she relied on the subcontractor to

                                                                                              Page 4
                  Invoice Audit of the Microsoft Consulting Services Contract –
                                        TIRNO-03-K-00191



check the qualifications of the consultants it provided to the contractor. We requested résumés
from the contractor; however, the contractor could not provide résumés for 23 of 75,
or 31 percent, of the consultants listed on the invoices we tested.
The COTR stated that IRS personnel work closely with the subcontractor-provided consultants
and would know if they were qualified to perform contract-related tasks. The COTR also stated
that he or she had no concerns with this contractor, and his or her weekly discussions with end
users revealed they were generally satisfied with the contractor’s performance. Further, the CO
stated that he or she considered this contractor very qualified.
The GSA Federal Supply Schedule Contract item 16, entitled “Description of Services and
Pricing,” provides specific educational and general experience qualifications that must be met to
be eligible for the various labor categories included in the contract and establishes pricing for
each labor category. Further, item 13, entitled “Résumés,” states that résumés shall be provided
to the user ordering activity upon request.
In our opinion, relying solely on testimonial assertions to validate contract consultants’ technical
qualifications is insufficient; résumés or similar documentation should be provided and reviewed
to ensure proper labor rates are being used.

Recommendations
Recommendation 1: The Director, Procurement, should ensure COs and COTRs adhere to
the requirements of FAR 52.232-7(a)(1), Payments Under Time-and-Materials and Labor-Hour
Contracts, when appropriate.
       Management’s Response: IRS management disagreed with our recommendation.
       The IRS believes it complied with FAR 52.232-7 (which states, “other substantiation”
       besides timecards is acceptable) because the CO approved the subcontractor providing
       weekly status reports generated directly from its accounting records, which listed daily
       hours and labor rates charged. These reports were reviewed in weekly meetings with the
       subcontractor. Both the contractor and the COTR then confirmed that the subsequent
       monthly subcontractor invoices traced to the weekly reports.
       In addition, the IRS rejected our suggestion that it follow guidance in A Guide to Best
       Practices for Contract Administration to review the contractor’s timecards and sign-in
       sheets because this is a commercial time-and-materials contract awarded by the GSA.
       The IRS further offered that the Cost Accounting Standards Board affirmed that, for these
       types of contracts, “the application of Cost Accounting Standards from a pricing
       standpoint, is similar to a firm-fixed-price contract.”
       Finally, the IRS believes the audit findings validated its approach, in that all hours
       charged traced to the monthly invoices and timecards.


                                                                                                Page 5
          Invoice Audit of the Microsoft Consulting Services Contract –
                                TIRNO-03-K-00191



Office of Audit Comment: We did not identify any documentation within the IRS
contract files to support that the IRS verified the contractor’s system contained reliable
information (analogous with a DCAA review). In addition, contrary to the IRS’
response, the lists of labor hours attached to the contractor’s invoices that we reviewed
were prepared by the contractor, not the subcontractor. We were provided only
subcontractor-prepared documentation (timecards and labor hour reports) subsequent to
our opening with the contractor. Further, we were not provided all the supporting
documentation until we issued our discussion draft report at the conclusion of our
fieldwork, which reported $1.8 million in questioned costs, out of $2.8 million reviewed,
due to unsupported subcontractor labor charges. If this documentation, prepared by the
subcontractor, existed throughout the contract period, we question why it took over
4 months to provide us the timecards and labor hour reports, especially since similar
documentation was provided promptly for $1 million of the $2.8 million reviewed.
Sound business practices dictate that such documentation should be readily identifiable
and retrievable from the business accounting and recordkeeping system.
As mentioned in our report and highlighted in the IRS response, the IRS did develop a
process to verify hours worked. However, we believe the process resulted only in the
verification of hours listed on the summary sheets to the invoices, not in verification that
the summary sheets were accurate. Since subcontractor timecards and labor hour reports
did exist, we believe such documentation, instead of summary sheets, should have been
used to verify subcontractor labor hour charges. Further, if reviewing all timecards and
labor hour reports would be too cumbersome and time consuming, we believe the IRS
should have reviewed, at a minimum, a sample of such documentation to verify the
accuracy of the summary sheets.
We agree with the IRS’ conclusion that the application of Cost Accounting Standards to
time-and-materials contracts, from a pricing standpoint, is similar to a firm fixed-price
contract. However, pricing is not relevant to our issue. We continue to believe the CO
should confirm that contracted employees were performing their assigned duties. Our
primary criteria for this condition are in FAR 52.232-7, which states, “The Contractor
shall substantiate vouchers by evidence of actual payment and by individual daily job
timecards.” We agree that it also goes on to state “or other substantiation approved by
the Contracting Officer.” However, for time-and-materials contracts, we would expect
the CO to verify, on at least a sample basis, that the labor hours charged were supported
by timecards or other documentation such as sign-in sheets, payroll records, etc., to
ensure the accuracy of invoices and contract compliance. Depending on the verification
results, the CO could then adjust the verification process and rely on other substantiation.
Finally, the fact that no charges were ultimately found to be questionable should not be
the basis to forgo the need to improve the IRS’ overall invoice verification control
environment, which is the intent of our recommendations. Our position is bolstered by

                                                                                      Page 6
                      Invoice Audit of the Microsoft Consulting Services Contract –
                                            TIRNO-03-K-00191



           the fact that it took the contractor and subcontractor an inordinately long time to produce
           documentation that should have been readily available.
Recommendation 2: The Director, Procurement, should ensure COs and COTRs are
cognizant of the importance of requesting and reviewing résumés of contracted consultants.
           Management’s Response: IRS management disagreed with our recommendation.
           The IRS believes it did verify the consultants’ qualifications by having the Government
           task manager directly interview, either over the telephone or in person, the
           subcontractor’s proposed team members to determine if they were qualified to perform
           the task. Accordingly, the IRS believes oral interviews, where specific questions can be
           asked about experience and qualifications, are preferred to reviewing written résumés
           because individuals may misstate their experience in a résumé. Hence, the interviews
           appropriately reduced and managed risk while verifying whether the customer’s
           requirements can be satisfied. An example was provided that, during one of the weekly
           status report reviews, errors were found in the subcontractor invoices where an incorrect
           rate was charged. This occurred in two of the invoices selected for the audit. The IRS
           reviewer determined an employee charged hours under the Senior Software Consultant
           rate that should have been charged at the lower Software Consultant rate. Accordingly, a
           subsequent voucher was reduced by those hours.
           The IRS believes that, since no miscalculations were identified during the audit, it is
           reasonable to assume the résumés not reviewed are also appropriate. Consequently, the
           IRS believes the audit results substantiated its procedures, which included verbal
           interviews, verifying rates to weekly reports, obtaining proposals with hours and rates,
           and including employee names in contract modifications.
           IRS management also disagreed with our reporting of a “Reliability of Information”
           outcome measure related to subcontractor employees for whom résumés were not
           provided. They stated the outcome significantly overstates the impact of the “alleged
           potential labor rate misclassification” and they believe there are no potential savings or
           measurable impact from the audit recommendations. Our originally reported outcome
           measure was $650,176.37, which related to the total hours charged by 23 subcontractor
           employees for whom résumés were not provided.6 After obtaining a list from us in early
           April 2006, the IRS provided résumés for 10 of the original 23 employees, then advised
           us the charges associated with the remaining 13 employees totaled $444,430. In its
           official response to the draft report, the IRS stated that it is realistic to project and assume
           the remaining 13 résumés would also be found compliant, especially in light of its
           interviews and weekly and monthly reviews verifying who was working on this contract.
           The IRS stated that, to assume otherwise (i.e., these 13 résumés are incorrect contrary to
           the findings for the other 62), is not reasonable.

6
    See Appendix IV for details. The 23 subcontractor employees were from a total of 75 employees reviewed.
                                                                                                          Page 7
          Invoice Audit of the Microsoft Consulting Services Contract –
                                TIRNO-03-K-00191



Office of Audit Comment: We did not identify any documentation within the
contract files to substantiate that discussions were held with subcontractor employees to
verify their qualifications. Further, we disagree with the IRS’ contention that, in this
situation, oral testimony is preferable to documentary evidence because individuals may
misstate their experience in a résumé. While we acknowledge that individuals may
misrepresent their qualifications on a résumé, certain technical requirements, such as
college degrees or years of specific technical job experience, to meet specific positions
are best identified through written documents such as résumés. If the veracity of the
résumé is questioned, one can always confirm items in question with the listed source
entities. Interviews with individuals to ascertain their level of competency, while
beneficial, cannot substitute for ensuring specific technical requirements of the position
have been met, unless the interviews specifically cover such technical requirements and
the discussions are documented with the information that otherwise would be contained
in the résumé.
We agree that labor hour verifications were conducted during the weekly status report
reviews and errors were identified. We applaud the IRS’ efforts to ensure correct rates
were being used; however, these efforts had no bearing on the verification of the
qualifications of the subcontractor employees to ensure the employees met the
requirements for the positions in which they were classified.
Concerning the IRS’ disagreement with the outcome measure, we have the following
comments. The outcome measure does not concern questionable charges (questioned
costs) because we were able to confirm through timecards and other supporting
documentation that the labor hours were supported and accurately calculated based on the
cited labor category. At issue is whether the employees met the requirements for their
respective cited labor categories. Without résumés or other supporting documentation,
we could not determine if such requirements were met. Accordingly, we measure the
total value of labor charges on the affected employees under Reliability of Information,
which we define as ensuring the accuracy, validity, relevance, and integrity of data,
including the sources of data, used by the IRS to plan, monitor, and report on its financial
and operational activities. As mentioned, subsequent to the draft report issuance in
February 2006, the IRS in April 2006 provided us an additional 10 résumés from the
original list of 23 employees we had provided to the IRS at the conclusion of our
fieldwork on this issue in September 2005. Thus, we reduced the outcome measure to the
total value of the hours charged by the remaining 13 employees, which was $444,430.
Also, we understand the IRS’ rationale for further reducing the value of this issue to the
difference between the cited labor category and the lowest labor category for the
respective positions. This would be acceptable if documentation existed to support the
lowest labor category. However, since the IRS did not have any support in the contract
files that these 13 contractor employees met even the minimum technical requirements

                                                                                     Page 8
                 Invoice Audit of the Microsoft Consulting Services Contract –
                                       TIRNO-03-K-00191



       specified for any labor category in those positions, we cannot be assured the employees
       should have been assigned to this contract. We thus calculated the value of this outcome
       measure at the total labor hour charges associated with these 13 employees.
Recommendation 3: The Director, Procurement, should ensure COs and COTRs are
cognizant of the extent of audit coverage, if any, by the DCAA and adjust invoice verification
procedures accordingly.
       Management’s Response: IRS management disagreed with our recommendation.
       The IRS contends that, prior to award, the GSA made a determination of responsibility,
       which requires that contracts be awarded to responsible prospective contractors only. To
       be determined responsible, contractors are required to have satisfactory records of
       performance, integrity, and business ethics and to possess the necessary organization,
       experience, and accounting and operational controls. Accordingly, the IRS relies on the
       GSA’s determination of responsibility and reviews of the contractor’s systems.
       In addition, the GSA performs a postaward review of its contractors. Specifically, in
       September 2005, the GSA performed a postaward review of the contractor covering
       4 main areas and over 25 subelements. The areas reviewed included ordering procedures
       and administrative, contract pricing, and financial concerns. Based upon its review, the
       GSA rated the contractor outstanding. The contractor is also audited yearly by an
       independent certified public accounting firm, which audits its financial statements,
       policies and procedures, and related internal controls (in addition to other audits by State
       and local agencies). During contract performance, in both 2003 and 2004, the
       independent auditors provided an unqualified opinion.
       The IRS believes its review process was validated by the audit because, after all labor
       hours and over 60 percent of all résumés were audited, no questioned costs or rates were
       found.
       Office of Audit Comment: We believe the IRS’ position (i.e., the contractor was
       selected for a Federal Government contract, reviewed by the GSA, and audited by a
       certified public accounting firm, thus eliminating the risk of not being audited by the
       DCAA) is not reasonable. Using this argument would suggest the Federal Government’s
       risk on a time-and-materials contract was so reduced by these activities that there was no
       need for Federal Government audit coverage or contract administration verification of
       invoices prior to payment.
       Our recommendation is for the CO to be cognizant of the billing risk that could exist
       when neither the contractor nor the subcontractor is audited by the DCAA and to adjust
       invoice verification procedures accordingly. The Federal Government relies heavily on
       the DCAA in determining whether a business has adequate controls in place to ensure
       billing and estimating systems can be trusted to produce accurate invoices, in accordance
       with Federal regulations and standards and with contract terms and conditions. The

                                                                                            Page 9
                      Invoice Audit of the Microsoft Consulting Services Contract –
                                            TIRNO-03-K-00191



           aforementioned activities of the GSA and certified public accounting firm do not
           necessarily provide the same level of assurance that a DCAA audit would provide, given
           the differences in scope of such activities and audits.
           Again, the fact that no charges were ultimately found to be questionable should not be the
           basis to forgo the need to improve the IRS’ overall invoice verification control
           environment, which is the intent of our recommendations.

Contract Deliverables Were Acceptable
We examined contract correspondence files and interviewed the CO and COTR to determine
whether the contractor’s deliverables were acceptable. The contract involved performing
information technology professional services for four primary tasks:
      •    Enterprise architecture design and implementation and migration planning for
           Microsoft’s Active Directory Services.
      •    Architecture design and implementation and migration planning for
           Windows 2000 and Windows.NET server.
      •    Enterprise strategy consulting.
      •    Microsoft Consulting Manager and Premier Support Services Technical Account
           Manager services.
The contractor provided services for the following IRS projects and offices:
      •    Criminal Investigation National Operations Center.
      •    Large and Mid-Size Business Management System.
      •    Web Services, Web Development, and Hosting.
      •    Internal Revenue Manual E-Clearance Application.
      •    Servicewide7 Policy, Directives, and Electronic Research.
      •    Criminal Investigation Electronic Records Management System.
      •    Tax Exempt and Government Entities Division.




7
    “Servicewide” indicates IRS-wide.



                                                                                             Page 10
                 Invoice Audit of the Microsoft Consulting Services Contract –
                                       TIRNO-03-K-00191



Based on our limited auditing procedures, nothing came to our attention that would lead us to
believe there were significant problems with the deliverables associated with the tasks included
in our tests.




                                                                                          Page 11
                    Invoice Audit of the Microsoft Consulting Services Contract –
                                          TIRNO-03-K-00191



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether selected invoices submitted and
paid under contract number TIRNO-03-K-00191 were appropriate and in accordance with the
contract’s terms and conditions. To accomplish our objective, we:
I.      Analyzed the Internal Revenue Service’s (IRS) invoice verification process prior to
        certifying payment to the contractor.
        A. Interviewed the Contracting Officer and the Contracting Officer’s Technical
           Representative to confirm our understanding of the invoice verification process.
        B. Documented invoice processing risks including accuracy, supportability, and
           allowability of invoice charges and concluded as to the overall control environment.
        C. Interviewed IRS personnel involved in the administration of the contract to identify
           any concerns that existed regarding the contractor, its billing practices, or any specific
           invoices.
II.     Verified whether invoice charges submitted by the contractor and paid by the IRS were
        accurate, supported, and allowable.
        A. Researched the IRS Request Tracking System (RTS)1 and prepared a list of
           transactions processed during the life of the contract (April 4, 2003, through
           June 15, 2005). The RTS listed 29 invoices submitted by the contractor. The
           29 invoices included 184 charges against 33 tasks (equivalent to IRS work requests)
           and totaled $7,673,842. Total task awards equaled $8,348,704.
             We judgmentally selected seven invoices for review. First, we selected the three
             invoices with the highest dollar amounts; then we selected four more invoices that
             would give us coverage of the most tasks. This sampling method resulted in the
             selection of 49 charges against 23 tasks that totaled $2,806,086 in IRS payments. We
             believed this sampling method would provide sufficient evidence to accomplish our
             audit objective and would result in acceptable management corrective action without
             the need for a precise projection of sample results.



1
 The RTS is a web-based application that allows IRS personnel to prepare, approve, fund, and track requests for the
delivery of goods and services. The System also allows for electronic acceptance of items delivered and provides an
electronic interface with the Integrated Financial System (the IRS’ administrative financial accounting system) for
payment processing.
                                                                                                         Page 12
                 Invoice Audit of the Microsoft Consulting Services Contract –
                                       TIRNO-03-K-00191



          This audit did not include audit procedures to obtain evidence that
          computer-processed data, within the IRS RTS, were valid and reliable. Although
          used during this audit, the data in general were not considered significant to the
          audit’s objective or resultant findings. We used the data within the RTS only to
          reasonably identify the universe from which we selected our sample of transactions
          for substantive testing of their accuracy, supportability, and allowability. We
          concluded and reported only on those substantive tests. Therefore, there was no
          adverse effect on the audit as a result of not including reliability of
          computer-processed data audit procedures.
       B. Obtained supporting documentation for the invoices in the sample from the IRS and
          contractor and performed the following tests:
          1. Verified the mathematical accuracy of the invoices and supporting
             documentation.
          2. Traced invoice charges to supporting documentation.
          3. Verified whether invoice charges were actually paid by the contractor through
             examination of payroll records and extracts from the contractor’s financial
             records.
          4. Verified whether invoice charges were allowable under the terms and conditions
             of the contract.
III.   Verified through interviews with responsible officials and reviews of project files
       whether there was acceptable existence of deliverables, as stipulated in the contract, for
       all tasks.




                                                                                           Page 13
                 Invoice Audit of the Microsoft Consulting Services Contract –
                                       TIRNO-03-K-00191



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Robert W. Beel, Lead Auditor
Thomas Dori, Senior Auditor
Jeff K. Jones, Senior Auditor
Melvin Lindsey, Auditor




                                                                                      Page 14
                Invoice Audit of the Microsoft Consulting Services Contract –
                                      TIRNO-03-K-00191



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P




                                                                         Page 15
                 Invoice Audit of the Microsoft Consulting Services Contract –
                                       TIRNO-03-K-00191



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:

•   Reliability of Information – Potential; $444,430 (reduced from $650,176.37 as originally
    cited in the draft report; see page 2).

Methodology Used to Measure the Reported Benefit:

We examined invoices and supporting documentation obtained from the Internal Revenue
Service (IRS) Office of Procurement, as well as documentation received directly from the
contractor, to verify charges for a judgmental sample of seven invoices. We selected our sample
from a total population of approximately $7.7 million in transactions processed by the IRS. The
7 invoices involved approximately $2.8 million in IRS payments.
We identified $650,176.37 (approximately 23 percent of the amount audited) in charges for
which qualification résumés could not be provided by the contractor. On April 7, 2006,
subsequent to the issuance of our draft report on February 28, 2006, the IRS provided
10 additional résumés, which it considered acceptable. According to the IRS, these résumés
reduced the amount related to the remaining 13 consultants to $444,430.




                                                                                          Page 16
    Invoice Audit of the Microsoft Consulting Services Contract –
                          TIRNO-03-K-00191



                                                      Appendix V

Management’s Response to the Draft Report




                                                             Page 17
Invoice Audit of the Microsoft Consulting Services Contract –
                      TIRNO-03-K-00191




                                                         Page 18
Invoice Audit of the Microsoft Consulting Services Contract –
                      TIRNO-03-K-00191




                                                         Page 19
Invoice Audit of the Microsoft Consulting Services Contract –
                      TIRNO-03-K-00191




                                                         Page 20
Invoice Audit of the Microsoft Consulting Services Contract –
                      TIRNO-03-K-00191




                                                         Page 21
Invoice Audit of the Microsoft Consulting Services Contract –
                      TIRNO-03-K-00191




                                                         Page 22
Invoice Audit of the Microsoft Consulting Services Contract –
                      TIRNO-03-K-00191




                                                         Page 23
Invoice Audit of the Microsoft Consulting Services Contract –
                      TIRNO-03-K-00191




                                                         Page 24
Invoice Audit of the Microsoft Consulting Services Contract –
                      TIRNO-03-K-00191




                                                         Page 25
